Department of Homeland Security
   Ofﬁce of Inspector General



        CBP's Construction of Border Patrol 

        Facilities and Acquisition of Vehicles





OIG-09-91                                    July 2009
                                                             Office of Inspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                      July 14, 2009

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report covers the strengths and weaknesses of Customs and Border Protection’s
program to construct Border Patrol facilities and acquire vehicles. It is based on
interviews with employees and officials of Customs and Border Protection, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.



                                      Richard L. Skinner 

                                      Inspector General 

Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................3


    Planning Process Not Adequate for Facilities ................................................................4 

    Recommendations...........................................................................................................5

    Management Comments and OIG Analysis ...................................................................5 


    Oversight of Facilities Projects ......................................................................................6 

    Recommendations.........................................................................................................10

    Management Comments and OIG Analysis .................................................................11 


    Acquiring Sufficient Vehicles.......................................................................................12 

    Recommendations.........................................................................................................12

    Management Comments and OIG Analysis .................................................................13 


Appendices
   Appendix A:          Purpose, Scope, and Methodology..........................................................14 

   Appendix B:          Management Comments to the Draft Report ..........................................16 

   Appendix C:          CBP Facility Centers ..............................................................................21

   Appendix D:          Major Contributors to this Report ...........................................................22 

   Appendix E:          Report Distribution ..................................................................................23 


Abbreviations
     CBP              Customs and Border Protection 

     DHS              Department of Homeland Security 

     ECSO             Engineering and Construction Support Office 

     GSA              General Services Administration 

     OBP              Office of Border Patrol 

     OIG              Office of Inspector General 

     SAP              Systems, Applications, and Products
     SBInet           Secure Border Initiative net 

     USACE            United States Army Corps of Engineers 





                    CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles
OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                  The objectives of our review were to determine whether Customs and
                  Border Protection (1) planned for and provided effective oversight of
                  Border Patrol facilities construction on the southwest border and (2)
                  procured a sufficient number of vehicles to accommodate the increase in
                  Border Patrol agents. Since July 2006, Border Patrol has added 6,000
                  agents and plans to add 2,000 agents during 2009, bringing the total to
                  20,000 agents.

                  Customs and Border Protection’s planning and oversight of design and
                  construction of its Border Patrol facilities needs improvement. Current
                  planning is based on an out-of-date facilities design guide that does not
                  include all current requirements or provide accurate construction cost
                  estimates. Customs and Border Protection also needs uniform policies and
                  procedures and a comprehensive information system to oversee
                  construction projects.

                  Customs and Border Protection did not complete 56 (77%) of the 73 rapid
                  response facilities projects it planned to complete in 2008. These projects
                  include new facilities, modifications to existing facilities, and temporary
                  solutions to accommodate new agents and shifting agent deployments.
                  Customs and Border Protection has initiated several actions to improve its
                  facilities construction planning and oversight, including updating its
                  design guide, developing a new project management tracking system, and
                  improving and updating the space planning and cost estimation tool.

                  Customs and Border Protection has not replaced Border Patrol vehicles at
                  the required 20% annual rate and does not have a centralized information
                  system to monitor vehicle availability.

                  This report originally contained seven recommendations to Customs and
                  Border Protection to enhance the planning and control of facilities projects
                  and improve overall management over vehicles. We have since deleted
                  recommendation 5 given its inconsistency with the department’s emerging
                  plans to develop and implement an enterprise-wide project tracking
                  system. Customs and Border Protection concurred with five
                  recommendations and partially concurred with one recommendation,
                  number 6, which remains unresolved. We have incorporated Customs and
                  Border Protection’s response to our recommendations in Appendix B.


             CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 1

Background
              The United States Border Patrol’s priority mission is to detect and
              interdict terrorists and weapons of terror while accomplishing traditional
              missions such as detecting, apprehending, and deterring smugglers of
              humans, drugs, and contraband. In May 2006, the President called for
              comprehensive immigration reform that included strengthening control of
              the country’s borders by adding 6,000 new agents to the Border Patrol by
              the end of December 2008, resulting in 18,000 agents on board. The
              President’s FY 2009 budget requested funding for approximately 20,000
              Border Patrol agents.

              Facilities supporting Border Patrol agents in the field include buildings
              and other structures at Border Patrol sector headquarters, stations,
              checkpoints, and remote forward operating bases. In 2008, the Border
              Patrol’s permanent facilities included 143 stations and 20 sector
              headquarters buildings. By 2015, Customs and Border Protection (CBP)
              plans to complete 29 new Border Patrol stations, 1 new sector
              headquarters building, 5 vehicle maintenance buildings, and 7 checkpoint
              projects for a total estimated cost of $1.1 billion.

              In FY 2007, CBP began constructing 73 Rapid Response Projects to build
              facilities to support the increase in Border Patrol agents. These projects
              include new facilities, modifications to existing facilities and temporary
              solutions to provide additional space until more permanent facilities are
              constructed. Border Patrol’s facilities construction budget for FY 2008
              totaled $170,026,000, including $69,400,000 for Rapid Response Projects.

              The CBP Office of Finance administers the Border Patrol facilities
              construction program, overseeing strategic planning, programming,
              budgeting, and construction execution. Within the Finance Office, three
              Facility Centers located in Dallas, Texas; Indianapolis, Indiana; and
              Laguna Niguel, California; execute the construction projects. Facility
              Center project managers oversee facilities design and contract preparation.
              The CBP project managers carry out their oversight responsibilities
              through site visits, project delivery team meetings, review of progress and
              financial reports, and review and approval of potential contract
              modifications. (Appendix C provides additional details on Facility Center
              responsibilities.)

              CBP’s U.S. Border Patrol Facilities Design Guide (Design Guide)
              provides criteria and concepts for planning and designing Border Patrol
              facilities. The guide covers general architectural designs, defines needed
              structures and systems, and provides specific technical criteria on building
              materials and systems. All entities involved in planning and designing


         CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                             2

                             Border Patrol facilities, including architects, engineers, the United States
                             Army Corps of Engineers (USACE), and the General Services
                             Administration (GSA), are to use the guide.

                             In planning and designing construction projects, the Facility Centers
                             receive input from Border Patrol sector field offices on operational needs
                             for their facilities. In addition, the Office of Border Patrol (OBP) at CBP
                             headquarters provides operational requirements and determines mission
                             needs. OBP personnel participate in design reviews and develop spending
                             plans based on operational priorities, the conditions of existing facilities,
                             and the schedule for deploying agents to facilities.

                             USACE and GSA provide services to CBP in constructing Border Patrol
                             facilities, including Rapid Response Projects. USACE provides
                             engineering, design, design review, project management, construction
                             management, procurement, real estate acquisition, environmental
                             protection, and other related services. USACE contracts with firms to
                             perform these services and oversees their work. While USACE facilitates
                             the construction of facilities projects that CBP will own, GSA facilitates
                             many of CBP’s leasing projects. USACE and GSA are required to submit
                             monthly status reports to CBP on each project, including updates on
                             project status, milestones accomplished, and costs from initiation through
                             completion.

Results of Audit
                             CBP has not adequately planned or provided sufficient oversight of the
                             design and construction of its Border Patrol facilities because of the
                             absence of (1) a current Design Guide, (2) an effective tool for estimating
                             project costs, (3) uniform policies and procedures for CBP project
                             managers’ oversight of USACE in constructing facilities, and (4) a
                             comprehensive information system 1 for efficient project management at
                             its Facility Centers. These weaknesses increase the risks of project cost
                             overruns, construction delays, and quality issues. Timely resolution of
                             these issues is important, since CBP plans to complete 29 new Border
                             Patrol stations, 1 new sector headquarters building, 5 sector vehicle
                             maintenance buildings, and 7 checkpoint projects by 2015.

                             In addition, CBP did not complete 56 (77%) of the 73 Rapid Response
                             Projects originally planned for completion by December 31, 2008. CBP
                             has since completed seven projects and operationally resolved another
                             four. Thus, 45 projects remain to be completed with eight of these
                             projects scheduled for completion after 2009.

1
    Customs and Border Protection refers to an automated information system as a “tool” when it is not part of its
    enterprise architecture system. We use the generic term “system” rather than “tool” in this report.

                       CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                              3

                           CBP has not replaced Border Patrol vehicles at the recommended annual
                           rate and lacks an adequate centralized vehicle management information
                           system to ensure that sufficient vehicles are available for Border Patrol
                           agents.

                           During our review, CBP initiated steps for facilities planning and
                           oversight to update its Design Guide, add a tool to improve cost estimates,
                           and develop a new project management system. CBP also plans to deploy
                           a new vehicle management information system for Border Patrol by the
                           end of FY 2009.

          Planning Process Not Adequate for Facilities

                           Design Guide Is Outdated

                           CBP’s Design Guide provides direction during the planning and design
                           phases of a project and is intended to reduce the amount of effort and time
                           required to develop facilities projects. The Design Guide for developing
                           facilities was last updated in 2003 and does not reflect recent technology
                           and other new requirements such as the SBInet technology. For example,
                           a nearly completed design for construction of the Lordsburg, New Mexico
                           station was retracted and revised to add 3,000 square feet to address
                           SBInet requirements. Another example was the need to add a new radio
                           tower to the design of the new Fort Hancock, Texas facility. 2 This
                           entailed drafting a new scope of work and additional funding to complete
                           the added scope. Introducing changes after the designs are “complete” or
                           once the project is in construction can increase the time and cost to
                           complete the project.

                           During our review, CBP’s Office of Finance – Facilities Management and
                           Engineering began taking steps to update the guide to support faster
                           development of new facilities, more functional designs, and more accurate
                           reflection of the Border Patrol’s needs.

                           Cost Estimates Are Not Reliable

                           CBP’s project cost estimates are understated. CBP derives its estimates
                           from entering data such as the number of agents, type of facility, and
                           functions performed at the facility into an estimating program. The
                           program then computes the total square footage needed for the facility and
                           estimates the project cost per square foot. According to CBP officials, this
                           tool results in an unrealistically low estimate because new requirements,
                           including SBI and environmental requirements, have not been added to the
                           tool. The per-square foot cost data is also out-of-date and the tool does

2
    The Lordsburg, New Mexico and Fort Hancock facilities were not part of the rapid response program.

                      CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                           4

      not provide accurate inflationary adjustments for future costs. Recently,
      national construction costs had increased by 11% due to rising fuel and
      materials costs in the year from the initial cost estimate to contract award.

      Understated cost estimates may also reduce any allowance for changes as
      projects progress and may adversely impact timeliness as well as the
      number of planned projects that can be completed. According to CBP
      officials, they have initiated an update to enhance the cost estimation tool
      that includes new requirements, regional costing, and improved
      inflationary adjustments. CBP also initiated additional training for the staff
      to provide better construction cost estimates and initiated an Earned Value
      Management System to better control and estimate project costs, schedule,
      and performance.

Recommendations
      We recommend that the Commissioner of U.S. Customs and Border
      Protection:

      Recommendation #1: Update the Design Guide to include any new
      requirements and establish a requirement to regularly update the guide.

      Recommendation #2: Complete development of a more reliable cost-
      estimating tool for facilities construction projects.

Management Comments and OIG Analysis
      CBP provided written comments on our draft report. Below is a summary
      of CBP’s written response to the report’s first two recommendations and
      our analysis. A copy of CBP’s response and a summary of its plans and
      progress for addressing the recommendations are included in Appendix B.

      CBP’s Comments to Recommendation # 1:

      CBP concurred with the recommendation to update and establish a
      requirement to regularly update the Design Guide (currently referred to as
      the Facilities Design Standard). CBP started updating the Facilities
      Design Standard prior to the release of our draft report. The new Facilities
      Design Standard is in the final stages of review and CBP expects to
      release it by July 31, 2009.

      OIG Analysis: We consider CBP’s comments responsive to the
      recommendation, which is resolved and open pending full implementation
      of an updated Facilities Design Standard and establishment of a



 CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                     5

             requirement to regularly update it. CBP’s response did not address how
             often the Facility Design Standard would be updated.

             CBP’s Comments to Recommendation #2:

             CBP concurred with the recommendation to complete development of a
             more reliable cost-estimating tool for facilities construction projects as
             part of the Facilities Design Standard. CBP was working on an improved
             cost-estimating tool prior to the issuance of our draft report. CBP is
             currently testing and performing training on this tool and expects to
             release it by July 31, 2009.

             OIG Analysis: We consider CBP’s comments responsive to the
             recommendation, which is resolved and open pending full implementation
             of a new cost-estimating tool that provides reliable construction cost
             estimates for facilities.


Oversight of Facilities Projects
             More Effective Project Oversight Needed

             CBP’s standard operating procedures for facility construction oversight do
             not specify the frequency and scope of review and inspection for CBP
             project manager visits to construction sites to ensure USACE and GSA
             properly perform construction and project management. According to
             CBP officials, their project managers should provide routine oversight
             through monthly site visits; however, these visits are not always
             performed which increases the risk of construction problems.

             For example, as shown in Figure 1, construction beams or windows were
             not properly placed on the outside structure of one building, resulting in
             beams running through the window opening.




        CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                            6

     Figure 1. Example of an Improperly Placed Construction Beam




     In another instance, as documented in the two photos below, carport roofs
     were built too low for Border Patrol vehicles to fit under them.

     Figure 2. Examples of Carport Roofs Built Too Low for Border
     Patrol Vehicles




CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                    7

     Air-cooling units installed in two other buildings located in the desert shut
     off during periods when outside temperatures rose above 110°F, and had to
     be reset continually. At other buildings, evaporative cooling units caused
     excessive humidity that resulted in mold and rusting of equipment and tools
     in these buildings.

     Project managers at the Laguna Niguel and Dallas Facilities Centers
     provide different amounts and types of oversight. Project managers at
     Laguna Niguel may conduct on-site construction visits once a month or
     every other month. Project managers at the Dallas Facilities Center visit
     construction sites at least once a month. Lack of consistent monthly site
     visits by the Laguna Niguel project managers appears to be a contributing
     factor to deficiencies in construction quality identified by the Border
     Patrol.

     Rapid Response Projects Not Completed as Scheduled

     Border Patrol agents are deployed based on operational needs, which can
     change as the amount, type, and location of activity on the border changes.
     CBP responds to shifting agent deployments with Rapid Response
     Projects to expedite the availability of facilities for Border Patrol.

     CBP scheduled 73 Rapid Response Projects for completion by the end of
     2008 to accommodate the 6,000 new agents and to address existing facility
     gaps for currently deployed agents. To meet the challenge of these
     projects, CBP established an Integrated Projects Team to monitor the

CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                    8

     scheduling and execution of the Rapid Response Projects. Due to project
     delays, CBP completed only nine projects in 2008 and adjusted the
     completion schedule for 56 projects beyond December 2008. CBP also
     canceled or resolved the operational need for eight other projects. Table 1
     shows the status and schedule of the 73 Rapid Response Projects as of
     December 2008.

               Table 1. Status of Rapid Response Projects as of December 2008
          Number
                          Projects canceled        Projects         Projects scheduled
          of Rapid
                          or operationally       completed by         for completion
          Response
                              resolved             12/31/08          beyond 12/31/08
          Projects
             73                   8                    9                     56

     CBP informed us that as of March 2009, it had completed an additional
     seven projects and would use alternate solutions, such as leasing, for
     another four. Thus, 45 projects remain to be completed with eight of these
     projects scheduled for completion after 2009.

     When Rapid Response Projects are not completed on time, the Border
     Patrol lacks space needed to accommodate its agents. Construction delays
     could also result in increased costs for labor and materials

     In general, environmental impact, scope changes, site identification, and
     cost issues were responsible for the project delays. For example, two of
     the southwest border projects were delayed for environmental reasons. In
     one case, a World War II munitions bunker and underground piping, was
     discovered during the environmental review, which delayed site
     acquisition and resulted in CBP selecting another site for the project. In
     the other, an environmentally protected plant was found on the site. Both
     delays might have been avoided if an environmental expert had been on
     the site identification team and had visited the sites. A CBP official told
     us that CPB is starting to do this.

     Two other projects were delayed due to scope change. In one case, the
     Border Patrol requires an additional 22,000 square feet of space to meet its
     operational needs; however, it had originally requested only 6,000 square
     feet. In the other case, two modular units were originally planned but the
     project was changed to one large modular unit.

     Two additional projects were delayed for site-specific reasons. In these
     two cases, the only site CBP located was one where Border Patrol will be
     co-located with another entity, resulting in delays due to security reviews
     and approvals.



CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                      9

      CBP advised us, they had performed a “lessons learned” workshop on
      Border Patrol Rapid Response Projects, in January 2009. The workshop
      participants discussed lessons learned and identified recommendations in
      the areas of project planning, requirements definition, project
      management, external provider coordination, change management, and
      communication and reporting. The workshop resulted in
      recommendations concerning environmental site assessments, scope
      changes, site identification, and cost estimation.

      Inefficient Information Monitoring Database

      Currently, CBP facility project managers must enter data for their
      construction projects into two separate information systems: a USACE
      system, Engineering and Construction Support Office (ECSO), and CBP’s
      Systems, Applications, and Products (SAP). ECSO is used to track project
      progress and SAP is used for project generation, funding assignment and
      obligation, and reporting. Neither system provides all the information CBP
      needs to efficiently monitor USACE’s management of the projects.

      In addition, some data are entered in both systems. For example, project
      managers enter data on the obligation of project funds into both ECSO and
      SAP. Further, project managers stated that SAP is not user-friendly,
      mostly because various cost modules are not linked and it is time-
      consuming to update information.

      CBP project managers stated that it would be more efficient if they could
      enter all project-related information into a single system. During our
      review, CBP officials told us that they had contracted with a firm to
      develop a comprehensive project management system. However, the
      department plans to develop and implement a single, enterprise-wide
      project tracking system for use by all components. CBP would benefit
      from providing input to, and planning to use the projected DHS-wide
      system to meet its project tracking needs.

Recommendations
      We recommend that the Commissioner of U.S. Customs and Border
      Protection:

      Recommendation #3: Establish specific policies and procedures on the
      required frequency and scope of review and inspection work to be
      conducted by CBP project managers during construction site visits.




 CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                    10

      Recommendation #4: Implement the recommendations from the “lessons
      learned” workshop to improve the planning and execution of Border Patrol
      Rapid Response Projects.

      Recommendation #5: Deleted. (See last paragraph of this page)


Management Comments and OIG Analysis

      CBP’s Comments to Recommendation #3

      CBP concurred with the recommendation to establish specific policies and
      procedures regarding the required frequency and scope of review and
      inspection work that CBP project managers should perform during
      construction site visits. CBP initiated action to develop these policies and
      procedures prior to the issuance of our draft report. CBP is restructuring
      its Facilities Management and Engineering office to provide improved
      project oversight. The Border Patrol facilities program office is
      establishing review criteria for each project to ensure sufficient project site
      visits are conducted. CBP expects to implement the new policy and
      procedures by October 31, 2009.

      OIG Analysis: We consider CBP’s comments responsive to the
      recommendation, which is resolved and open pending full implementation
      of specific policies and procedures regarding the required frequency and
      scope of review and inspection work that CBP project managers should
      perform during construction site visits.


      CBP’s Comments to Recommendation #4

      CBP concurred with the recommendation to implement the
      recommendations from the “lessons learned” workshop to improve the
      planning and execution of Border Patrol Rapid Response Projects. CBP
      expects full implementation by October 31, 2010.

      OIG Analysis: We consider CBP’s comments responsive to the
      recommendation, which is resolved and open pending full implementation
      of the “lessons learned” workshop.

      A draft version of this report included a fifth recommendation that CBP
      institute a comprehensive project tracking system for managing its
      facilities projects. We deleted this recommendation given the department’s
      plans to develop and implement a single, DHS-wide project tracking
      system for use by all components.


 CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                    11

Acquiring Sufficient Vehicles
            CBP has not replaced Border Patrol vehicles at the required 20% annual
            rate, and CBP does not have up-to-date and accurate information to
            determine the condition and availability of the approximately 12,000
            vehicles in its fleet.

            Border Patrol uses a ratio of two vehicles for every three agents. Border
            Patrol officials reported that during FY 2008, they purchased 4,245
            vehicles and used approximately 1,400 of these vehicles to replace 14% of
            the existing fleet. However, the 14% vehicle replacement rate is
            significantly below the rate in CBP’s Fleet Management Plan. This plan
            requires replacing vehicles on a 5-year (20% per year) cycle. Border
            Patrol records show that in October 2007, 33% of the fleet (3,280
            vehicles) was more than 5 years old. According to Border Patrol officials,
            the retention of an aging fleet results in more frequent, extensive, and
            costly repairs. It also results in more out-of-service vehicles and reduced
            vehicle availability, which may hinder Border Patrol mission performance.

            The Border Patrol does not have a program-wide vehicle management
            information system, which makes it difficult to determine the number of
            vehicles available and in service, needing or undergoing maintenance, or
            out of service. The existing fleet inventory tracking system has limited
            capability. For example, the system is unable to track maintenance
            schedules or parts inventories. The Border Patrol is deploying a new
            vehicle management information system in several sectors, which may
            resolve these issues and improve the tracking of the fleet inventory and
            maintenance. Border Patrol plans to complete program-wide deployment
            of this system by the end of FY 2009.

     Recommendations
            We recommend that the Commissioner of U.S. Customs and Border
            Protection:

            Recommendation #6: Adhere to the requirement in its fleet management
            plan to replace 20% of Border Patrol vehicles yearly.

            Recommendation #7: Ensure that a Border Patrol vehicle management
            information system is implemented for all sectors by the close of FY 2009.


     Management Comments and OIG Analysis


       CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                          12

     CBP’s Comments to Recommendation #6

     CBP partially concurred with our recommendation to adhere to its 20%
     replacement rate for CBP vehicles. CBP proposes that using an analysis
     of fleet data to forecast the replacement rate within the constraints of
     funding and vehicle purchase limits would be more advantageous for
     Border Patrol and other vehicle programs in CBP. CBP reported it has
     been aggressively replacing Border Patrol vehicles, resulting in a reduced
     percentage of vehicles exceeding the General Services Administration
     minimum age from 36% in 2006, to 33% in 2009. Further, CBP reported
     it substantially reduced the number of inoperable vehicles to 126 in 2009,
     and that it plans to replace all vehicles identified as inoperable at the end
     of FY 2008 with current funding.

     OIG analysis: We consider this recommendation to be open and
     unresolved. Although CBP has reported progress in reducing the number
     of inoperable vehicles and aggressively replacing vehicles, 33% of its fleet
     still exceeds General Services Administration’s minimum age criteria. As
     a result, we suggest that CBP follow its own Fleet Management Plan,
     which requires replacing vehicles on a 5-year (20% per year) cycle. If this
     schedule is no longer optimal, CBP should revise its Fleet Management
     Plan to include an updated vehicle replacement schedule and the reasons
     why such a revision is necessary.


     CBP’s Comments to Recommendation #7

     CBP concurred with our recommendation to implement a vehicle
     management information system for all sectors and provided a due date of
     December 31, 2009 for full implementation. Currently, CBP has
     successfully deployed this vehicle management information system in the
     San Diego and Tucson Sectors. CBP is deploying this system in
     controlled stages to allow for improvements and modifications.

     OIG analysis: We consider CBP’s comments responsive to this
     recommendation, which is resolved and open pending full implementation
     of a vehicle management information system for all sectors. Although we
     originally recommended that a system be in place by the end of FY 2009,
     CBP’s basis for implementing this system by December 31, 2009, appears
     reasonable.




CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                   13

Appendix A
Purpose, Scope, and Methodology


                   The objectives of our review were to determine whether CBP (1) planned
                   for and provided effective oversight of Border Patrol facilities
                   construction on the southwest border (2) procured a sufficient number of
                   vehicles to accommodate the increases in the number of Border Patrol
                   agents.

                   We conducted our audit in phases, resulting in three periods of review.
                   The Border Patrol permanent facilities review covered October 2006
                   through June 2008, and the Rapid Response Projects for facilities review
                   covered October 2005 through March 2009. The Border Patrol vehicles
                   review covered FY 2004 through March 2006, and was updated through
                   September 2008.

                   We toured and physically observed Border Patrol facilities either in place
                   or under construction at five Border Patrol sectors along the southwest
                   border. The sectors visited were El Centro, California; Yuma and Tucson,
                   Arizona; and El Paso and Laredo, Texas. We also conducted audit
                   fieldwork at CBP headquarters in Washington, DC; Facility Centers in
                   Laguna Niguel, California, and Dallas, Texas; and selected field sites at
                   CBP Border Patrol sector headquarters and station offices. We included
                   sectors and field office sites that had facilities recently constructed or
                   under construction.

                   We reviewed a sample of facilities under construction within each of the
                   sectors we visited. We reviewed planning documents and learned about
                   construction progress and activities. We interviewed Border Patrol agents
                   and staff about their views and concerns regarding facilities construction
                   to determine whether their operational needs were being satisfied.

                   At the Facility Centers in Laguna Niguel and Dallas, we reviewed facilities
                   plans and schedules and interviewed center directors and project managers.
                   We discussed construction quality, omissions, and change orders. We also
                   discussed whether construction projects are on schedule and within budget,
                   and whether the completed projects will provide sufficient space for the
                   increased number of agents expected by the end of December 2008.
                   Through interviews and a review of project managers’ monitoring reports,
                   we evaluated the adequacy of CBP’s system for monitoring facilities design
                   and construction activities being conducted under contracts with USACE
                   and GSA.

                   We interviewed officials at CBP headquarters to discuss issues arising
                   from our fieldwork at the sectors and facility centers. We also reviewed
                   pertinent records and documents to compare the status of the facilities
                   construction with estimated completion dates.

              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 14

     During our review of CBP’s Rapid Response Projects, we visited CBP
     headquarters in Washington, DC, and interviewed officials from the
     Border Patrol’s Office of Finance Asset Management. We analyzed the
     Integrated Project Team’s Solutions Tracker spreadsheet, as well as
     updates through July 2008. We also reviewed internal and external
     Integrated Project Team meeting minutes through July 2008.

     During our review of Border Patrol vehicles, we visited CBP headquarters
     in Washington, DC; four Border Patrol sectors in Tucson, Arizona;
     McAllen, Texas; Blaine, Washington; and Tonawanda, New York; and 15
     stations within the sectors reviewed. We also reviewed the 2008 Report to
     Congress and CBP Fleet Management Plan, as well as several vehicle
     maintenance documents. We also interviewed additional CBP officials and
     analyzed the FY 2007 vehicle inventory.

     We performed the audit according to generally accepted government
     auditing standards. Those standards require that we plan, evaluate internal
     controls and assess risk, and perform the audit to obtain sufficient,
     appropriate evidence to provide a reasonable basis for our findings and
     conclusions based on our audit objectives. We believe that the evidence
     obtained provides a reasonable basis for our findings and conclusions
     based on our audit objectives.




CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                   15

Appendix B
Management Comments to the Draft Report




              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 16
Appendix B
Management Comments to the Draft Report




              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 17
Appendix B
Management Comments to the Draft Report




              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 18
Appendix B
Management Comments to the Draft Report




              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 19
Appendix B
Management Comments to the Draft Report




              CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                 20
Appendix C
CBP Facility Centers



                    CBP has facility centers in Laguna Niguel, California; Dallas, Texas; and
                    Indianapolis, Indiana, to service both the northern and southern border
                    areas. Each facility center executes leasing, construction, and repair and
                    alteration projects in its area of responsibility.

                    Each facility center has a Construction Branch, responsible for acquisition
                    of CBP-owned facilities, including land acquisition, execution of
                    environmental requirements, design, construction, furniture procurement,
                    and moving coordination. The Construction Branch serves as Contracting
                    Officer’s Technical Representative and coordinates with service providers,
                    including USACE and GSA.

                    Each facility center also has a Leasing Branch, responsible for lease
                    acquisitions, repairs, and alterations. The Leasing Branch conducts
                    market surveys, facilities design, construction, furniture procurement, and
                    move coordination. The Leasing Branch also serves as Contracting
                    Officer’s Technical Representative and coordinates with service providers,
                    including GSA and USACE.

                    The following are areas of responsibility for the southern Border Patrol
                    sectors:

                       Laguna Niguel Facilities Center             Dallas Facilities Center

                               San Diego Sector                        El Paso Sector
                               El Centro Sector                        Marfa Sector
                                 Yuma Sector                           Del Rio Sector
                                Tucson Sector                          Laredo Sector
                                                                  Rio Grande Valley Sector
                                                                    New Orleans Sector




             CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                  21
Appendix D
Major Contributors to this Report



                    Phillip Maulden, Division Director
                    Sam Bellino, Project Leader
                    Aldon Hedman, Auditor-in-Charge
                    Jose Benitez-Rexach, Senior Auditor
                    Kathleen Hyland, Senior Auditor
                    Maryann Pereira, Senior Auditor
                    Falon Newman-Duckworth, Program Analyst




               CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                  22

Appendix E
Report Distribution



                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs

                      U.S. Customs and Border Protection

                      Acting Commissioner
                      CBP Audit Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as appropriate




               CBP’s Construction of Border Patrol Facilities and Acquisition of Vehicles

                                                  23
ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
